  SUPPLEMENTAL REPORT RELATED
     TO COTTON & COMPANY’S
AGREED-UPON PROCEDURES REPORT ON
       SENSITIVE PAYMENTS

    AUDIT REPORT NUMBER 3-29

           MAY 29, 2003
This report may contain proprietary information subject to the provisions of 18 USC 1905 and must
not be released to the public or another agency without permission of the Office of Inspector General.
                        U.S. SMALL BUSINESS ADMINISTRATION
                             OFFICE OF INSPECTOR GENERAL
                                  WASHINGTON, D.C. 20416



                                                                         AUDIT REPORT
                                                                 Issue Date: May 29, 2003
                                                                 Report Number: 3-29


To:              Thomas A. Dumaresq
                 Chief Financial Officer


From:            Robert G. Seabrooks               Original signed [FOIA Ex. 6]
                 Assistant Inspector General for Auditing

Subject:         Supplemental Report Related to Cotton & Company’s (Cotton) Agreed-upon
                 Procedures Report on Sensitive Payments, Audit Report No. 1-20, Issued September
                 28, 2001

         As a result of a complaint received from a former SBA Regional Administrator (RA) with
respect to the finding entitled “SBA Paid Costs of Some Personal Travel by a Regional Administrator”
on page two of the subject report, our office conducted a supplemental review of the RA’s Fiscal Year
(FY) 2000 travel. We found that the RA’s travel expenses incurred during FY 2000 were
appropriately reimbursed. Accordingly, this report amends the related finding in the subject report.

                                                Background

        In September 2001, the Office of Inspector General (OIG) issued the subject audit report with
a finding which states that the RA submitted 31 travel vouchers during FY 2000 and, of these, 27
indicated that travel either originated or terminated in a location other than the RA’s official duty station.
The report concluded that at least $1,500 in additional costs resulting from routing travel in this manner
were personal costs that should not have been submitted to SBA for payment. Cotton relied solely on
travel vouchers and information maintained by SBA’s Denver Finance Center in conducting their
review.

         In December 2001, the RA contacted our office to request that the subject report be withdrawn
and be amended to accurately reflect the RA’s official and personal travel records. The RA believed
that the report mischaracterized the nature of the RA’s travel and implied that SBA paid for personal


                                                      2
travel to and from the RA’s personal residence. In response to the RA’s request, our office removed
the report from our website and conducted a review of the RA’s FY 2000 travel.
                                            Objective and Scope

        The objective of our review was to determine if the RA complied with SBA’s policies and
procedures and the Federal Travel Regulation (FTR) when performing official government travel and
requesting reimbursement for related travel expenses. To accomplish the objective, we reviewed 30
travel vouchers for trips that occurred during FY 2000 and one amendment voucher to claim expenses
previously denied. We reviewed the travel vouchers to determine if the RA’s trips were properly
authorized and completed in accordance with approved travel authorizations. We interviewed the RA,
a former Associate Administrator for Field Operations (AA/FO), and officials in SBA’s Denver Finance
Center. Further, we reviewed SBA’s travel policies and procedures, the FTR and relevant General
Services Board of Contract Appeals (GSBCA) cases.

        We conducted fieldwork from February 2002 to September 2002. Our review was conducted
in accordance with Government Auditing Standards.


                                     SUMMARY OF RESULTS

         We concluded that the RA complied with SBA policies and procedures and the FTR in
performing travel and requesting payment for travel expenses during FY 2000. Accordingly, the
additional costs identified by Cotton of approximately $1,500 associated with the RA’s routing of travel
were appropriate travel expenses. SBA’s policies and procedures and the FTR do not adequately
address situations where an employee originates and/or terminates travel from a location other than their
official duty station. The absence of clear policies may allow for abuse. As a result, we are
recommending that SBA implement appropriate policies and procedures.

RA Submitted Travel Expenses for Travel Incurred During FY 2000 in Accordance with
Applicable Policies and Procedures

         The RA relied on SBA’s travel policies and procedures, the FTR, and informal guidance from
the RA supervisors in authorizing and performing official travel during FY 2000. During FY 2000, the
RA originated or terminated travel for 29 of 30 business trips from [ FOIA Ex. 6
] where the RA personal residence is located, instead of the RA official duty station in [ FOIA Ex. 6
]. As a result, approximately $1,500 in additional costs were incurred by the RA and reimbursed by
SBA.

         Under Section 301-10.7 of the FTR, an employee traveling on official travel must travel to his
or her destination by the usually traveled route unless the agency authorizes or approves a different route
as officially necessary. For this reason, the FTR limits travel payment to the cost of travel by a direct
route or on an uninterrupted basis. In reviewing the former RA’s origination of travel from other than
the RA official duty station, we examined prior cases involving similar travel. The GSBCA held In the


                                                    3
Matter of K. Wesley Davis, GSBCA No. 15623-TRAV October 17, 2001, that an agency can, in its
discretion and for reasonable cause, authorize an employee to initiate and end travel from a location
other than the employee’s official duty station.
Further, GSBCA held that if such travel is authorized and the employee acts in reliance on that
authorization, the agency cannot later refuse to reimburse the employee for the cost of that travel even if
the cost is greater than the cost would have been if the travel had originated and ended at the
employee’s official duty station.

         Some of the RA’s 29 trips that originated and/or terminated in [FOIA Ex. 6] were authorized
by the RA’s supervisors, a former Associate Administrator for Field Operations (AA/FO) and acting
AA/FO. The other trips were self authorized by the RA in accordance with SBA’s policies at that time
which allowed certain field officials to self authorize travel. Additionally, the former AA/FO stated that
he informally granted his RAs the flexibility to originate and terminate travel anywhere within their region
due to the nature of their jobs, which required them to travel many times on weekends and in the
evenings on their own time. In addition, he authorized the RA to telecommute from the RA’s residence
in [ FOIA Ex. 6            ]. For each of the 29 trips that originated or terminated in a location other
than the RA’s official duty station, the RA began and ended travel from the location authorized on the
travel authorizations and in accordance with SBA’s travel practices and policies. Further, the RA
traveled from the authorized location to the temporary duty station and back by the most direct route
and without delays for personal convenience.

         Accordingly, although the RA’s cost of travel was more than it would have been if the travel had
originated and/or ended at the official duty station, the RA was authorized to initiate and terminate travel
from/to a location other than the RA’s official duty station. Additionally, as previously mentioned with
respect to the GSBCA case, because the RA acted in reliance on such authorizations, SBA cannot later
refuse to reimburse the RA for the cost of travel even if the cost is greater than it would have been if the
employee originated or ended travel at his or her official duty station. Further, SBA does not have
written policies or procedures that (1) specify when it is appropriate for employees to originate and/or
terminate travel from other than their official duty station or (2) require authorizing officials to document
the justification for such routing of travel. In the absence of a policy that limits the discretion of an
authorizing official from authorizing such travel, we concluded that the authorizing officials acted within
their authority. Based on the foregoing, we determined that the additional costs identified by Cotton
were appropriate travel expenses. To clear up any confusion with respect to SBA’s policies in these
types of situations and reduce the potential for travel abuse, SBA should implement written policies and
procedures that address items (1) and (2) above.

         SBA policies regarding the self authorization of Regional Administrator travel have changed
since the last trip that the RA self authorized. On September 1, 2000, SBA issued a policy notice that
only allowed Regional Administrators to self authorize travel within their respective jurisdictions. The
Office of Field Operations took the additional step of informally adopting a policy that required Regional
Administrators to obtain authorization from the Associate Administrator for Field Operations prior to all
of their travel. Additionally, on September 25, 2002, SBA issued a policy notice that required the
Associate Administrator for Field Operations to authorize all Regional Administrator travel with the


                                                     4
exception of travel within the Regional Administrators’ jurisdictions lasting less than 12 hours. While
both notices have subsequently expired, the Office of Field Operations is currently following the policy
contained in the latest policy notice and the Office of the Chief Financial Officer has indicated that the
new travel standard operating procedures (SOP) will reflect this policy.

        SBA’s past practice, however, of permitting certain officials to self authorize travel could create
an appearance, in situations such as these, that certain individuals were taking advantage of their self
authorization authority for personal gain. This was especially true where appropriate justification was
not documented with the official file copy of the travel voucher. This perception opens the door for
public criticism of SBA’s travel policies and practices. As a result, SBA should issue the new travel
SOP containing the requirement that prohibits individuals from self authorizing travel that originates
and/or terminates from a location other than his or her official duty station.


Recommendation:

1A. We recommend that the Chief Financial Officer implement policies and procedures that:

    •   Specify when it is appropriate for employees to originate and/or terminate travel from other than
        their official duty station for official government travel.

    •   Require authorizing officials to attach a written justification to the travel voucher when an
        employee is authorized to initiate or terminate travel from a location other than their official duty
        station.

    •   Prohibit individuals from self authorizing travel that originates and/or terminates from a location
        other than their official duty station.


Auditee’s Response:

         The comments provided by the RA indicate agreement with the finding, subject to specific
editorial changes being made.


Office of Inspector General’s Evaluation of Auditee’s Response:

        The report was revised as appropriate.




                                                      5
SBA Management’s Response:

         The comments provided by the Chief Financial Officer (CFO) indicate disagreement with the
draft finding. The CFO stated that the OIG’s conclusion that it is now permissible to reimburse the
former Regional Administrator for what was previously deemed personal travel is not supported by the
FTR and seems contrary to current travel policy. The CFO also stated that the OIG cites a GSBCA
decision that seems to allow reimbursement for personal travel as long as it is authorized in advance.
The CFO further stated that additional information and guidance from the GSBCA on this matter is
appropriate and they will submit a request to GSA for an advisory opinion to determine if the former
RA’s payments for travel were permissible. Based on GSA’s opinion, SBA will develop policy
regarding alternate points of origination and destination for SBA employee travel.

      In regard to the draft finding discussing the certifying officer signature on Standard Form 1012,
the CFO disagreed with the finding and we subsequently deleted it.

        SBA’s response is included in its entirety as Attachment 1.


Office of Inspector General’s Evaluation of SBA’s Response:

         We agree that the RA’s FY 2000 travel arrangements do not appear to meet the intent of the
FTR and SBA’s travel policy. However, we continue to support our position that the RA’s FY 2000
travel was properly reimbursed based on (1) precedent set by the GSBCA in applying the FTR rules,
and (2) the absence of an SBA policy restricting employees from traveling from a location other than
their official duty station and/or limiting reimbursement when an employee travels in such a manner.

        In the aforementioned GSBCA case, the claimant, Mr. Davis, asked that GSA review a
determination made by his agency that he was not entitled to full reimbursement for the cost of
authorized travel from his personal residence to a temporary duty location. Mr. Davis’ personal
residence was in Shreveport, Louisiana, while his official duty station was in Dallas, Texas.

        In the discussion section of the case, GSBCA states that it is correct, under FTR section 301-
70.1, that an agency must limit payment of travel costs to that which is necessary to accomplish the
mission in the most economical and efficient manner and in accordance with the rules stated throughout
the FTR. For this reason, they acknowledged that the FTR expressly advises employees that
reimbursement for the cost of travel is limited to the cost of travel by a direct route or on an
uninterrupted basis.

         Mr. Davis presented the argument that there were unique facts which distinguish his claim from
the typical claim for reimbursement of costs associated with indirect travel. Specifically, he received a


                                                    6
signed travel order authorizing him to start travel from Shreveport. GSBCA found merit in his argument,
especially because the order was issued after Mr. Davis had explained his situation and plans to agency
officials. The agency’s reply to this argument was that the travel authorization was incorrect and the
office approving the authorization simply exceeded its legal authority. GSBCA disagreed and stated
that they saw no reason why an agency cannot, in its discretion and for reasonable cause, authorize an
employee to start and/or complete official travel at a point outside the employee’s official duty station.

         Additionally, GSBCA stated that they did not see the case as one involving indirect routing of
travel because the claimant (1) sought and received authorization to start and complete travel from his
personal residence instead of his official duty station, (2) did not expect to be reimbursed for travel back
and forth from his residence to his official duty station, and (3) traveled from his personal residence to
the temporary duty station by a direct route without delays for personal convenience. GSBCA
commented that the agency’s existing policy of limiting reimbursement of travel costs for employees with
homes and families located outside their official duty stations may be a sound and prudent policy.
However, GSBCA stated that it is well established that if it is within the discretion of an agency to make
a specific authorization, and if it does so, that authorization cannot be withdrawn once the employee
incurs expenses in reliance on it. The GSBCA case is included in its entirety as Attachment 2.

         We believe that the circumstances related to the RA’s travel are similar enough in nature to
Davis’ case that if you apply the fundamental principles set forth by GSBCA, the RA’s travel would be
found to be in compliance with the FTR. As in Davis’ case, the RA had signed travel orders authorizing
the RA to initiate and end travel from the RA’s personal residence instead of the RA’s official duty
station. Although many of the trips were self authorized, as permitted by agency policy, the RA’s usual
travel plan of leaving from and returning to his/her personal residence when conducting official
government travel was known and accepted by the RA’s supervisors. Further, related travel costs
were accepted and paid by SBA. Additionally, in applying the precedent set by GSBCA regarding
indirect travel, the RA’s routing of travel would not be considered indirect travel because it was
authorized and there was no evidence that the route from the RA’s personal residence to the temporary
duty location was indirect or involved a delay for personal convenience. Accordingly, we believe that
characterizing such travel as “personal travel” is inappropriate.

         In the absence of an existing policy limiting reimbursement for employees with homes and
families outside their official duty station or specifying when it is appropriate to originate and terminate
travel from outside their official duty station, we determined that SBA properly reimbursed the RA for
travel costs during FY 2000. While we encourage SBA officials to obtain an advisory opinion from
GSA, as they see appropriate, we believe that the GSBCA case fits the circumstances of the RA’s
travel and recommend that SBA implement clear policies and procedures to address these types of
situations.




                                                      7
                                               ***
        The finding included in this report is the conclusion of the Office of Inspector General’s Auditing
Division. The finding and recommendation are subject to review, management decision, and
corrective action by your office in accordance with existing Agency procedures for audit
follow-up and resolution.
        Please provide us your management decision for the recommendation within 30 days. Your
management decision should be recorded on the attached SBA Form 1824, “Recommendation Action
Sheet,” and show either your proposed corrective action and target date for completion, or explanation
of your disagreement with our recommendation.
       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-7577.


Attachments




                                                     8
